                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM


I   Case Number: A04030011                                                                    Page 1 of 1
                                                                                                                 I
                  In response to an allegation1 about the care of animals in an NSF funded                  we
         reviewed the award for compliance with animal welfare requirements. The review not only showed
         that the institution3had failed to have proper Institutional Animal Care and Use Committee (IACUC)
         approval, but that award and others had not been reviewed by an appropriate Institutional Review
         Board (IRB) for human subjects protections and had not submitted annual or final reports. We
         conducted a site visit to inspect the animal facilities and collect documentationrelated to IACUC and
         IRB review of the projects. The institution was able to obtain approval from the Office of Human
         Research Protections (OHRP) for its IRB before we arrived on campus and had commenced
         reviewing the projects. The site visit concluded with the institution's voluntary suspension of all
         work with animals on the NSF award until the IACUC had all the necessaryFedera1approvals. The
         institution also promised to correct the other issues. The NSF program officer4 agreed that the
         voluntary suspension would be an appropriate course of action under the circumstances.

                 While trying to get the approvals from the IACUC fiom NSF, the institution requested a
         change in PI and notified NSF that the PI' was no longer an employee of the institution. Eventually,
         N S F ~approved a new PI: and the scope of the project changed to remove the work requiring IACUC
         approvals. All non-programmatic issues are now resolved.

                    Accordingly, this case is closed.




I'
NSF OIG Form 2 (1 1/02)
